                                 Performance Audit Report




             Benefits of Mentor Protégé Joint Ventures are Unknown:
           Robust Oversight is Needed to Assure Success and Avoid Abuse




This revised version of Report 13-03, posted November 15, 2012, is the same as the one issued
October 23, 2012, except that the OIG has made revisions to clarify text in item 3 on page 21.
These revisions do not alter the overall report findings and recommendations.




October 23, 2012                                                           Report No. 13-03
                                 U.S. Small Business Administration
                                     Office of Inspector General
                                       Washington, D.C. 20416


                                                                                     REPORT TRANSMITTAL
                                                                                         REPORT NO. 13-03



DATE:           OCTOBER 23, 2012

To:             John Shoraka
                Associate Administrator for Government Contracting and Business Development

                Robert Hill
                Associate Administrator for Field Operations

SUBJECT:        Benefits of Mentor Protégé Joint Ventures are Unknown: Robust Oversight is Needed to
                Assure Success and Avoid Abuse

This report presents the results of our audit on Protégé Benefits from Joint Venture Agreements with
Mentors. Our audit objectives were to (1) determine the extent to which the joint venture agreement
between a mentor and protégé resulted in substantial benefits to the 8(a) participant, and (2) assess the
SBA’s oversight of Mentor Protégé Joint Venture Arrangements.

We appreciate the courtesies and cooperation of the Offices of the Business Development and
Field Operations during this audit. If you have any questions concerning this report, please call me
at (202) 205-7390, or Riccardo R. Buglisi, Director, Business Development Programs Group at
(202) 205-7489.

                                                   ***




/s/
John K. Needham
Assistant Inspector General for Auditing
                       EXECUTIVE SUMMARY
                       Benefits of Mentor Protégé Joint Ventures Are Unknown:
                       Robust Oversight Is Needed to Assure Success and Avoid Abuse
                                                                                            OCTOBER 23, 2012
                                                                                             Report No. 13-03

What OIG Audited                                          What OIG Found
The Small Business Administration (SBA) helps             The SBA cannot ensure that the 8(a) Mentor-Protégé
socially and economically disadvantaged small             program is achieving its intent of helping small
businesses gain access to federal contracting             disadvantaged businesses. We found the SBA did
opportunities through its 8(a) Business Development       not measure whether a protégé substantially
Program. As a part of the 8(a) Program, the SBA           benefited from a joint venture arrangement. This
established the Mentor-Protégé program, in which          occurred because SBA’s policies lacked performance
experienced firms mentor 8(a) firms (the protégé) to      measures to assess whether 8(a) firms benefited
enhance capabilities of the protégé, provide various      from the joint venture agreements and the mentor-
forms of business development assistance to the           protégé relationship. Further, SBA officials viewed
protégé, and improve the protégé’s ability to             joint venture arrangements as an incentive for the
successfully compete for contracts. Under this            Mentor to participate in the program rather than as
program, the mentor and protégé may joint venture         entities to be monitored. As a result, the SBA did
as a small business for any government contract.          not establish performance measures to monitor
                                                          program performance and mitigate risks inherent in
The objectives of this audit were to (1) determine        the 8(a) Program. Such risks include when non-8(a)
the extent to which the joint venture agreement           firms perform the majority of the work on a
between a mentor and protégé resulted in                  contract, and the 8(a) firm receives little or no
substantial benefit to the 8(a) participant, and (2)      developmental benefit from the arrangement, which
assess SBA’s oversight of the Mentor-Protégé              is a major goal of the 8(a) Program.
program’s Joint Venture Arrangements.               We
identified the nine district offices with the highest     Further, the SBA did not effectively oversee joint
total procurement dollars, and judgmentally               venture agreements between a mentor and 8(a) firm
selected three SBA district offices that serviced those   or protégé. Specifically, the SBA did not evaluate the
joint ventures.      We also reviewed files, and          protégé’s lack of capacity when approving a joint
interviewed SBA officials and senior managers of          venture; validate joint venture information provided
three 8(a) firms participating in joint ventures.         by the protégé; or capture vital information on joint
These three joint ventures had contracts valued at        ventures in its multiple information systems. Staff
approximately $350 million out of a total universe of     workloads, inadequate information systems, and
$1.7 billion in estimated 8(a) joint venture contracts.   problems with availability and quality of data
                                                          contributed to ineffective oversight. As a result, the
OIG Recommendations and Agency Comments                   SBA could not determine the universe of 8(a)
We made six recommendations to the SBA that               participants in joint venture agreements; whether
include developing measurable outcomes, oversight         the participants complied with or abused program
procedures, and an information system to ensure           requirements; or the program’s success.
protégés benefited from joint venture agreements.
On August 29, 2012, we provided a draft of this           Change in SBA Specialists’ Workload: June 2011 to January 2012
report to SBA management for comment. On                     Decline In         Growth In        Growth in Average
October 1, 2012, management submitted formal                 Number of        Number of 8(a)       Number of 8(a)
comments. Management generally concurred with                Specialists          Firms          Firms Per Specialist
all six recommendations, was fully responsive to
three recommendations, and partially responsive to              -38%              +11%                  +85%
three recommendations.
Table of Contents
Introduction .................................................................................................................................................. 5

Results ........................................................................................................................................................... 9

   Finding: The SBA Did Not Measure Whether Joint Ventures Provided Benefits to 8(a) Small Businesses
   .................................................................................................................................................................. 9

       Joint Venture Arrangements are to Build Protégé’s Capacity .............................................................. 9

       Mentor-Protégé Program-Joint Ventures Lacked Performance Measures ........................................ 10

       Accountability Required Performance Measurement ........................................................................ 11

       Specialists Could Not Measure Benefits ............................................................................................. 12

       Recommendations .............................................................................................................................. 13

   Finding: Weak Oversight May Lead to Abuse of Mentor Protégé Joint Ventures ................................. 13

       The SBA Did Not Evaluate Protégé’s Lack of Capacity ........................................................................ 14

       Specialists Did Not Validate Joint Venture Information Provided by the Protégé ............................. 14

       Specialists’ Multiple Responsibilities Affected Quality of Oversight .................................................. 15

       SBA’s Multiple 8(a) Information Systems Did Not Collect Joint Venture Information ....................... 17

       Recommendations .............................................................................................................................. 19

Appendix I: Scope and Methodology ......................................................................................................... 25

Appendix II: Mentor-Protégé Program ...................................................................................................... 28

Appendix III: Regulatory Changes to the Mentor-Protégé Program and Joint Venture Requirements .... 29

Appendix IV: Joint Venture Arrangements ................................................................................................ 31

Appendix V: Responsibilities of the Specialists Overseeing the 8(a) Program .......................................... 32

Appendix VI: Effective Practices for Servicing 8(a) Participants ................................................................ 33

Appendix VII: Agency Comments ............................................................................................................... 34
           The Mentor-Protégé program enables mentors1 and 8(a) participants, known as protégés, to
           joint venture as a small business for 8(a) procurements set aside for participants in the 8(a)
           Program. Several prior Small Business Administration (SBA or the Agency) Office of Inspector
           General (OIG) and Government Accountability Office (GAO) reports2 noted that the SBA was
           not properly monitoring its Mentor-Protégé program. Furthermore, a previous OIG audit
           found program abuse through violations of work performance requirements by protégés.3
           The current audit focused on joint venture arrangements under the Mentor-Protégé program.
           We performed this audit because of the high risk for potential program abuse where non-8(a)
           participants used their protégés as a way to receive 8(a) contracts and performed most of the
           work on the contract.

           Objectives

           The objectives of this audit were to (1) determine the extent to which the joint venture
           agreement between a mentor and protégé resulted in substantial benefit to the 8(a) participant,
           and (2) assess SBA’s oversight of the Mentor-Protégé Program’s Joint Venture Arrangements.

           To address these objectives, we reviewed SBA guidance, prior OIG, and GAO reports, and
           interviewed SBA officials in the Offices of Business Development and Field Operations.
           We identified the top nine district offices with Mentor-Protégé activity and with the highest
           total procurement dollars. These nine district offices’ contract dollars totaled over $1 billion.
           From the top nine district offices, we judgmentally selected our sample of three district offices
           with Mentor-Protégé activity. Washington, DC; Baltimore, MD, and San Antonio, TX were the
           district offices chosen. From those district offices, we judgmentally selected three 8(a)
           participants with mentor-protégé and joint venture agreements with closed 8(a) contracts or
           task orders in fiscal years 2009 and 2010. We reviewed the case files for the three firms at the
           district office and joint venture firm’s office. Additionally, we interviewed staff at the three
           district offices and senior management of the three 8(a) firms awarded a joint venture 8(a)
           contract with a mentor.

           We conducted this audit from September 2010 through July 2012 in accordance with generally
           accepted government auditing standards. Those standards require that we plan and perform
           the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
           findings and conclusions based on our audit objectives. We believe that the evidence obtained
           provides a reasonable basis for our findings and conclusions based on our audit objectives.
           Appendix I contains a detailed description of our scope and methodology.




1
  Mentors can be 8(a) participants that graduated or are in the last five years of the 8(a) program, other small businesses, or large businesses
[13 Code of Federal Regulations (CFR) 124.520(b)].
2
  Appendix I of this report has a list of prior coverage audit reports.
3
  SBA OIG, Audit of Two 8(a) Sole Source Contracts Awarded to Contractors in SBA’s Mentor Protégé Program, Report Number 7-19,
(Washington, D.C., March 30, 2007).
                                                                        5
Background

Overview of the 8(a) Program

In 1978, Congress amended the Small Business Act of 1958 to give the SBA statutory authority
for its 8(a) Program for minority-owned businesses. To qualify for the 8(a) Program, a firm must
be at least 51 percent owned and controlled by an individual or individuals who meet SBA’s
criteria of being socially and economically disadvantaged. Also, the individual owner(s) must be
of good character and citizen(s) of the United States. The participant must also qualify as a
small business under the size standard that corresponds with its primary industry classification,
and show a reasonable potential for success. Firms admitted to the 8(a) Program are eligible to
receive business development assistance from the SBA including preferential contracting
arrangements with the Federal Government.

Participation in this business development program encompasses two phases over a nine-year
period. The first phase, which covers a four-year period, is the developmental stage. During this
time, the 8(a) participants receive:

        specialized training,
        individual counseling assistance,
        high-level executive development support, and
        eligibility to obtain set aside and sole-source government contracting opportunities,
        which can be done through Joint Ventures arrangements.

The second phase, which covers the remaining five years, is the transitional stage.
While continuing to receive assistance, participants are expected to decrease their reliance on
8(a) contracts by increasing their amount of non-8(a) contracts to demonstrate their progress in
developing a viable business that is not solely reliant on the 8(a) Program.

In 2010, Congress enacted the Small Business Jobs Act (the Act) to provide critical resources to
help small businesses continue to drive economic recovery and create jobs. The Act granted the
SBA authority to establish new mentor-protégé programs for small businesses owned and
controlled by service-disabled veterans and women, and for Historically Underutilized Business
Zone businesses, modeled on SBA’s existing Mentor-Protégé program available to 8(a)
participants.

        Mentor-Protégé Program

In 1998, the SBA established the Mentor-Protégé program as a part of the 8(a) Program.
The program encourages private-sector relationships and expands SBA’s efforts to identify and
respond to the developmental needs of 8(a) participants. The 8(a) participants are eligible to
receive 8(a) sole source and 8(a) competitive contracts. Mentors provide technical and
management advice, financial assistance in the form of equity investments or loans, subcontract
support, and help in performing prime contracts through joint venture agreements with 8(a)
firms. Mentors and protégés can only perform 8(a) contracts as a joint venture, if the SBA
approves the mentor-protégé agreement.


                                            6
           Importantly, as an incentive for the mentor, the SBA’s mentor-protégé program allows the
           mentor and protégé to jointly pursue 8(a) contracts without the two firms being considered
           “affiliated”4 for purposes of SBA’s small business size standards. The SBA revised the
           8(a) regulations, effective March 2011, to clarify and strengthen certain provisions in the 8(a)
           Program, including the Mentor-Protégé program. Detailed explanations of the Mentor-Protégé
           program and the revised regulations are included in Appendices II and III.

                       Joint Venture Arrangements

           Joint Venture arrangements are one of the means by which mentors and their protégés can
           benefit from participating in the Mentor-Protégé program. Participants in the 8(a) Program may
           joint venture with a large company to bid on Federal procurements that are set aside for 8(a)
           participants. This can be on a competitive or non-competitive basis. For each participant, there
           are different incentives, for example:

                       for the protégé or 8(a) firm, the incentive is the opportunity to develop the capacity to
                       perform on larger contracts and the ability to successfully compete for contracts.

                       for the mentor or large business, the incentive is the exclusion from the affiliation rules5
                       for the duration of the joint venture agreement. The exclusion enables joint ventures –
                       between large businesses and 8(a) participants – that would not otherwise qualify under
                       the program, to receive federal contracts set aside for the 8(a) Program.

           To joint venture on an 8(a) contract, the mentor and protégé must sign a joint venture
           agreement, which among other requirements, sets forth its purpose and the responsibilities of
           the parties involved.

           The 8(a) Program regulations permit a joint venture between a group of businesses with
           interests in carrying out no more than three specific or limited-purpose contracts for joint profit
           over a two-year period.6 The businesses may combine their efforts, property, money, skills, or
           knowledge, for conducting business generally, but not on a continuing or permanent basis,
           according to regulatory guidance.7 Appendix III provides a more detailed explanation of the
           revised 8(a) regulations pertaining to the joint ventures. See Appendix IV for a detailed
           explanation of the joint venture arrangements.

           Administering Offices

           Two offices administer the 8(a) Business Development Program within the SBA: the Office of
           Business Development and the Office of Field Operations. The Office of Business Development
           is responsible for developing and implementing the 8(a) Program’s policies, and approval of

4
  SBA’s regulation Title 13 CFR 121.103(a)(1-2), General Principles of Affiliation defines affiliation as occurring when an individual controls or has
the power to control the other individual, or a third party or parties controls or has the power to control both. If firms are affiliated, the
employees or revenues of the firms are combined to determine whether they meet SBA criteria to be considered a small business.
5
  SBA’s regulation 13 CFR 121.103(h)(3) Affiliation Based on Joint Ventures rule states, when a joint venture of two or more businesses submits
an offer, as a small business, for a Federal procurement without regard to affiliation as long as each business is small under the size standard
corresponding to the North American Industrial Classification System code assigned to the contract.
6
  According to SBA’s regulation 13 CFR 121.103(h) Affiliation Based on Joint Ventures, a joint venture can exist between two or more individuals
or businesses.
7
  Title 13 CFR 121.103(h), Affiliation Based on Joint Ventures.
                                                                          7
             mentor-protégé applications. The Office of Field Operations, through its Business Opportunity
             Specialists (Specialists) located in 68 district offices throughout the nation, is responsible for
             approving joint venture agreements and monitoring participants in the 8(a) Program.

             The Specialists perform a variety of functions pertaining to the 8(a) Program, especially for the
             mentor-protégé relationships and joint venture agreements. Specialists help 8(a) participants
             by assisting in the preparation of a business plan and reviewing documentation provided during
             the 8(a) application screening process. After the SBA approves a firm’s participation in the 8(a)
             Program, Specialists continue to assist and service the 8(a) firm. This includes assisting the 8(a)
             firm through the application process for the mentor-protégé program or with a joint venture
             agreement. Appendix V lists more of the Specialist responsibilities.

             The Specialists use three stand-alone information systems to collect 8(a) participant
             information. The three systems are the Business Development Management Information
             System (BDMIS), the Electronic 8(a) system or E-8(a), and the Activity Contract Report (ACR).
             Each system has a different purpose and functionality; however, some of the information
             collected overlaps. For the purposes of this report, we focused on the data collected by each
             information system on 8(a) participants after approval into the mentor-protégé program and
             after the SBA approved a joint venture agreement. According to SBA officials, they are
             developing a new consolidated system with an expected completion date of December 2012.

             Nature of Limited or Omitted Information

             No information was omitted due to confidentiality or sensitivity, nor were there limitations to
             information on this audit.

             Review of Internal Controls
             The SBA’s Standard Operating Procedures8 (SOP) provide guidance on the implementation of
             internal control systems. The Office of Management and Budget (OMB) Circular A-123,
             Management’s Responsibility for Internal Control, requires agency managers to continuously
             monitor and improve the effectiveness of internal controls. During our review, we identified
             significant internal control deficiencies related to SBA’s policies and information systems used to
             monitor the 8(a) Program. The SBA’s policies lacked performance measures to assess whether
             8(a) firms benefitted from the joint venture agreements and mentor-protégé relationship, and
             did not provide specific guidance on key oversight activities to the Specialists, such as to validate
             information submitted by the protégé. Further, the systems SBA staff used for monitoring 8(a)
             participants has been an existing concern of the OIG. For a number of years, the OIG’s Fiscal
             Year Report on the Most Serious Management and Performance Challenges Facing the Small
             Business Administration identified critical challenges with the information systems used to
             monitor the 8(a) Program. In response to our previous recommendations to improve the
             information systems, SBA’s management has developed multiple systems yet none have been
             fully implemented. If the SBA implements our fourth recommendation in this report, it will
             strengthen their internal controls.




8
    SBA’s SOP 00 02, Internal Control System
                                                          8
             The SBA lacked performance measurements for joint venture arrangements and did not collect
             information specific to joint ventures. As a result, the SBA did not have the information
             necessary to determine whether mentor protégé joint ventures benefited the 8(a) participant.
             This lack of information weakened SBA’s ability to effectively oversee and assess the
             development of 8(a) participants with mentor and protégé joint venture agreements. The SBA’s
             weak oversight of the 8(a) participants in mentor protégé joint venture agreements increased
             the risk of program abuse by participants.



               Finding: The SBA Did Not Measure Whether Joint Ventures Provided Benefits to 8(a)
               Small Businesses

             The SBA cannot ensure that the joint venture arrangements under the Mentor-Protégé program
             are achieving the intent of helping small disadvantaged businesses. We found that the SBA did
             not measure whether a protégé substantially benefited from a joint venture arrangement— a
             vehicle for assisting an 8(a) firm—because SBA’s policies lacked such performance metrics.
             Further, Agency officials viewed the joint venture arrangement as an incentive for the mentor to
             participate in the program. Consequently, they did not define or establish performance metrics
             for the joint venture arrangements. As a result, the SBA was unable to monitor program
             performance and mitigate two risks inherent in the Mentor-Protégé program. The first risk is
             that non-8(a) firms perform a majority of the work on a contract effectively making it a non-8(a)
             contract awarded and reported as a small business set aside. The second risk is that the 8(a)
             firm receives little or no developmental benefit from the arrangement, a major goal of the joint
             venture arrangement and the 8(a) Program.

             Joint Venture Arrangements are to Build Protégé’s Capacity
             The purpose of the Mentor-Protégé program is to assist the protégé with meeting the goals
             established in its approved business plan and to perform on government contracts through joint
             venture arrangements. Joint venture arrangements enable an 8(a) participant— lacking the
             necessary capacity to perform effectively on a contract— to work with a more capable firm to
             develop the necessary capacity to do so independently. The ability of a firm to meet
             requirements of a contract requires capacity in certain areas, such as the firm’s ability to provide
             adequate and appropriate management, labor, equipment, plant, bonding and financial
             resources to complete the contract successfully.9 The SOP allows joint ventures only when the:

                        8(a) participant lacks the capacity to perform the contract on its own;
                        Joint Venture arrangement is fair and equitable;
                        Joint Venture will be of substantial benefit to the 8(a) participant; and
                        8(a) participant brings substantial resources and/or expertise to the Joint Venture.10

             We found that the SBA did not identify and measure the lack of capacity for the joint venture
             arrangements we reviewed. In addition, the SOP lacked criteria or metrics to assess whether

9
    SBA’s SOP 80 05 3, 8(a) Business Development Program Internal Guidelines
10
     SBA’s SOP 80 06 3, 8(a) Business Development Program Internal Guidelines
                                                                       9
the 8(a) participant would obtain substantial benefit or resources from a joint venture.
Without obtaining the information or better defining the benefits, the SBA cannot measure
program success. Generally, best practice studies have shown that successful programs include
performance measurements.

Mentor-Protégé Program-Joint Ventures Lacked Performance Measures
One of SBA’s “Priority Goals“ as cited in SBA’s Strategic Plan for Fiscal Years 2011-2016, is to
increase small business participation in government contracting while ensuring that the benefits
of SBA’s small business programs flow to the intended recipients. In determining whether the
SBA achieved these goals, the SBA needs reliable data. In May 2012 budget guidance the OMB
emphasized the need to use evidence and rigorous evaluation in budget, management, and
policy decisions to make government work effectively.

In our opinion, strong evidence is based on relevant performance measures, which in turn is
based on quality data. Without collecting appropriate data, the SBA cannot develop the
evidence it needs to measure program success. Having well designed programs that include
measurements and evaluations would enable the SBA to assess the success and benefits to 8(a)
participants with joint venture agreements.

We found that the SBA does not capture basic program data required by SBA policy, such as:

        The specific capacity the protégé lacks, which is necessary to justify a joint venture; and
        Whether the 8(a) participant benefited from the joint venture, and in what manner.

Further, the joint venture arrangements we reviewed lacked performance indicators, a critical
aspect of effective program management. Performance indicators measure how well objectives
are being achieved. As a result, SBA’s program officials did not know whether the 8(a)
participant benefited from the joint venture agreement or the joint venture arrangement’s
success.

We believe the following would be minimal indicators that the SBA could track in the Mentor-
Protégé program, such as the:

        number or total universe of joint venture arrangements and the associated contract
        dollars;
        number of 8(a) participants in SBA’s Mentor-Protégé program that received joint
        venture contracts and other business development assistance;
        8(a) participant’s growth after completing the joint venture arrangement; and
        percentage of the 8(a), mentor-protégé and non-mentor protégé participants that
        graduated from the 8(a) Program and still in existence, after completion of 8(a)
        contracts.

If the SBA collected such data and utilized indicators such as these, management would have the
necessary information to make decisions based on performance data for the mentor protégé
joint venture program. In addition, SBA staff would have metrics to assist in their monitoring of
the program, and to determine if the 8(a) participants benefited from the joint venture
arrangements.

                                            10
          Accountability Required Performance Measurement

          Federal agencies operate more effectively, according to OMB, when they focus on outcomes;
          set clear and measurable goals to clarify priorities; and drive performance and accountability
          and improvement.11 Accountability for performance requires performance measurements and
          reporting. When the management of a program, activity, or entity systematically collects and
          analyzes performance data to assess how well a program works is basic effective management.12
          Program evaluations often consist of four components—inputs, processes, outputs, and
          outcomes. For example, performance measures address program staffing and resources
          (inputs), the type or level of program activities conducted (processes), the direct products or
          services delivered by a program (outputs), or the results of those products and services
          (outcomes). Such evaluations are designed to answer a range of questions about programs to
          assist decision-making by program managers and policymakers.13 A model for evaluating joint
          venture arrangements between a mentor and protégé might look like Figure 1, below.

          Figure 1 Model for Evaluating Joint Venture Agreements' Components

                      Contexts                          Inputs                     Program Processes            Program Results
                  (program setting)              (available resources)


          Legal Authorities                 The Joint Venture              Approval of Mentor-Protégé    Output- Contract
                                            Agreement (allows the          agreement                     Deliverables Completed
          Program Purpose-To                establishment of the
          develop the protégés’             relationship)
          lacking capacity (i.e.
          management, labor,                                               Approval of joint venture     Outcome- Capacity to
          equipment)                                                       agreement                     perform the contracts and
                                            Servicing by Specialists to                                  capabilities gained by the
          Internal Controls-SOP, Code       8(a) Firm                                                    Protégé, e.g., enhanced
          of Federal Regulations (CFR)                                                                   contract negotiation
                                                                           Internal Controls-SOP, CFR,
          Requirements,                                                                                  techniques, project
                                                                           Annual Reviews
          Authorization and Annual                                                                       management skills for
                                            Operational Database to
          Reviews                                                                                        larger projects, proposal
                                            track the program
                                                                                                         preparation, learning more
          Split Oversight                                                                                complex accounting
                                                                           Specialists monitor whether
          Responsibility; Program                                                                        systems, etc.
                                                                           mentors provide capacity
          Management and Field
                                            Sufficient and Qualified       needs to the joint venture
          Operations
                                            Staff                          arrangements

          Source: SBA-OIG Analysis.

          SBA Policy Defined the Joint Venture Arrangement as a Legal Entity

          According to SBA management, the joint venture arrangement and its implied benefits to the
          Mentor were designed to be an incentive for companies to participate in the Mentor Protégé


11
   Http://goals.performance.gov
12
   See OMB Circular A-123. See Section IV Assessing Internal Control A. Sources of Information.
13
   GAO. U.S. GAO Designing Evaluations: 2012 Revision. GAO-12-208G (Washington, DC: January 31, 2012).
                                                                   11
           program. Therefore, the Agency did not establish performance measurements. While SBA
           managers view this arrangement as an incentive, SBA’s policy describes a joint venture as
           “An agreement between an eligible 8(a) participant and one or more other business concerns to
           establish a new legal entity solely for the purpose of performing a specific 8(a) contract.”

           The incentive is, therefore, that a non-8(a) firm, along with its 8(a) partner as a separate entity,
           can be awarded 8(a) contracts. However, the joint venture arrangement, established as an
           incentive, has inherent risks for the government. The risk occurs after the joint venture
           agreement is approved and a contract is awarded by the procuring agency. The risks are
           twofold. One is that non-8(a) firms perform a majority of the work on these contracts making it
           in effect, a non-8(a) contract that is reported as a small business set aside. The other risk is that
           the 8(a) firm receives little or no developmental benefit from the arrangement, a goal of the
           joint venture arrangement.

           Specialists Could Not Measure Benefits
           The Code of Federal Regulations requires that the protégé provide the Specialists (1) the value
           of each contract; (2) the percentage of the contract performed; and (3) the percentage of
           revenue accrued to each mentor and protégé of a joint venture for all federal contracts awarded
           to the joint venture.14 Another evaluation factor requires SBA staff to verify that the protégé
           documented—in their annual business plan—the technical and management assistance
           provided by the mentor.15

           The SBA’s 18 Specialists that we interviewed at the Washington, DC, San Antonio, TX, and
           Baltimore, MD, district offices did not have clear guidance to determine how and whether the
           protégé benefited from the joint venture. The SBA policy16 requires the Specialists to examine
           all joint ventures as part of the 8(a) Program annual review that all 8(a) firms must undergo.
           Specifically, the Specialists must review whether:

                       (1)       Joint Venture participants complied with prime contractor performance
                                 requirements;
                       (2)       Financial records were recorded and kept as required;
                       (3)       Personnel of each Joint Venture participant performed work as stipulated in the
                                 agreement and proposal;
                       (4)       Equipment was used and accounted for as stipulated;
                       (5)       The SBA approved all amendments to the joint venture agreement; and
                       (6)       8(a) participant(s) received substantial benefit from the Joint Venture.

           Item (6) was the only step in the review process that addressed the benefits of the joint venture
           to the protégé. However, it was up to each Specialist to determine the derived benefits as the
           SBA provided no further guidance or measurements to define the outputs or outcomes.
           The SBA regulations only focused on evaluating the overall mentor-protégé relationship, but
           lacked criteria necessary to evaluate joint venture agreements between a mentor and protégé.
           The 8(a) Business Development SOP provided only broad guidance on joint ventures after
           approval, and did not include outcome performance metrics. In addition, the protégé self-
14
   SBA’s regulation Title 13 CFR 124.520(f)(1)(iv), Evaluating the Mentor-Protégé Relationship. Effective March 2011, this regulation was
renumbered as 124.504(g)(i)
15
   SBA’s regulation Title 13 CFR 124.520(f)(1)(i)&(v), Evaluating the Mentor-Protégé Relationship.
16
   SBA’s SOP 80 05 3, 8(a) Business Development Program Internal Guidelines, Chapter 8 Joint Ventures and Teaming Arrangements
                                                                       12
reported this information to the Specialists. Therefore, the information may not have been
accurate or verified (see Finding II for more information).

Conclusion

The SBA cannot tell whether it is achieving its “Priority Goal” of increasing small business
participation in government contracting while ensuring that the benefits of its programs, such as
Mentor-Protégé, flow to the intended recipients. Without measures of program performance,
the SBA is unable to determine whether the 8(a) participants benefit from the joint venture
arrangements. Treating the program’s joint venture arrangement as an incentive—and not as
an entity requiring oversight—places SBA program managers in a weak position to determine
the effectiveness of these arrangements. As a result, SBA’s management is unequipped to
determine whether the joint venture arrangements under the Mentor Protégé program fulfill
the intent, and meet the requirements of the law, while minimizing risk to the government.

Recommendations
To ensure the SBA achieves its ”Priority Goal” of increasing small business participation in
government contracting while ensuring that the benefits of SBA’s small business programs flow
to the intended recipients, we recommend that the Associate Administrator for the Office of
Government Contracting and Business Development:

        1. Develop specific measurements (outputs and outcomes) to evaluate benefits of the
           joint venture agreements to the protégé.

        2. Use the information identified in Recommendation 1 to develop procedures to
           assess risk and better support decisions concerning the direction and,
           administration of the Mentor-Protégé program so as to minimize risk.



 Finding: Weak Oversight May Lead to Abuse of Mentor Protégé Joint Ventures

The SBA did not effectively oversee 8(a) firms that have joint venture agreements within the
Mentor Protégé Program. Specifically, the SBA:

        Did not evaluate the protégé’s lack of capacity to perform a government contract on its
        own, even though developing a protégé’s capacity is the reason for the joint venture;

        Did not validate, through the Specialists, joint venture information provided by the
        protégé; and

        Did not capture critical information on joint ventures in SBA’s multiple information
        systems.

These conditions existed because information was not provided to the Specialists; they had a
high case workload, and possessed a wide range of responsibilities that affected the quality of
the oversight performed. In addition, SBA’s policies did not require validating information
submitted by protégés, and SBA’s information systems lack key data. Furthermore, the
                                           13
             information systems that the Specialists used to monitor the 8(a) participants did not have data
             fields to enter joint venture information. All Specialists used a stand-alone Microsoft Excel
             spreadsheet to capture the joint venture information but the quality of the data submitted was
             poor because it had duplicate and missing information.

             As a result, the SBA could not determine (1) the universe of 8(a) participants in joint venture
             agreements, (2) whether the participants complied with program regulations, and (3) the
             program’s success. In addition, the Agency was unable to identify whether any program abuse
             occurred between the firms. For example, the SBA did not know how many mentors had
             multiple protégés located in different geographic areas that were serviced by other SBA district
             offices. Specifically, in at least one case, a mentor had multiple protégés and at least two joint
             venture agreements with two protégés performing on contracts that the mentor managed,
             thereby violating SBA regulations.

             The SBA Did Not Evaluate Protégé’s Lack of Capacity

             Current SBA policy requires the Specialist to review the capacity the 8(a) firms lack as part of the
             joint venture approval process, and how the Mentor “will provide that missing capacity.” Joint
             Venture regulations prohibit the SBA from authorizing the 8(a) contract if the 8(a) firm brings
             little to the joint venture. For the 8(a) joint ventures we reviewed, the SBA did not ensure that
             the case files contained information or documentation describing the protégé’s lack of capacity.
             Only 1 of the 18 joint venture agreements we reviewed had a vague statement addressing the
             capacity need in that “the firm lacks the necessary capacity to perform this contract on its own.”
             The remaining 17 did not describe the lack of capacity within the case files. For all three firms
             that we reviewed, the joint venture agreements did not have any specific statements on the
             type of capacity the firms lacked to perform the contracts.

             We could not determine whether the 8(a) participant benefited or gained capacity because
             benefits were not documented in the file. We attempted to verify this during our case file
             review of one joint venture arrangement and found that there were actually 11 joint venture
             agreements17 between the two same entities. None of the 11 agreements we reviewed
             described the lack of capacity. However, each joint venture agreement had a purpose
             statement that stated “to bid on viable Request for Proposals.” We believed that omission of
             lack of capacity and the use of general statements indicated that the firms were only interested
             in obtaining contracts, which could be a form of abuse and a violation of the affiliation rule.

             Specialists Did Not Validate Joint Venture Information Provided by the Protégé

             A key step in program oversight involves ensuring that information critical to a program’s
             performance is valid and reliable. Current Agency policy requires Specialists to review
             documentation submitted by 8(a) firms without performing any independent validation of the
             data. Based on our interviews with Specialists from three district offices, validating information
             submitted by protégés was challenging. For example, 11 of the 18 Specialists told us they did
             not verify the self-reported information submitted by the 8(a) firms because of their workload
             and other collateral duties. Five of the 18 Specialists verified some of the self-reported data
             with information in the Central Contractor Registry or Dynamic Small Business System.

17
     The 11 joint venture agreements are a subset of the 18 joint ventures agreements.
                                                                       14
Furthermore, Specialists for the three firms that we reviewed did not monitor the percentage of
work performed and whether the protégé managed the joint venture, as is required.

        Specialists Did Not Monitor Percentage of Work Performed by Protégé

The majority of the Specialists we interviewed did not monitor the percentage of work
performed. Further, based on our observations, the SBA relied on the businesses’ self-
certification and small business protests of a contract award as a way of being informed of any
program abuse. Ten of the 18 Specialists stated they did not collect data or verify the
percentage of work performed on contracts by the protégé. Two of the remaining Specialists
monitored the percentage of work by requiring the protégé to submit additional
documentation. For example, one Specialist required documentation with a percentage of work
estimate performed by each party. Even though the SOP required the 8(a) participant to
perform a significant percentage of work on the contracts, it did not require Specialists to
calculate or verify the percentages to ensure that the protégé gained work experience on the
contract. Under new regulations issued in March 2011, the Protégés are required to perform at
least 40 percent of the work completed by the joint venture. Given its current oversight
practices, the SBA is not in a position to effectively oversee compliance with this new
requirement.

        Protégé Capacity to Manage Joint Venture is Questionable

We questioned the protégés’ independent capacity to manage the joint ventures’ financial
records because the mentors managed the financial records in the three 8(a) firms we reviewed,
contrary to SBA regulations. For all three firms, the mentor managed the financial records;
however, the protégé was designated as the managing partner in the joint venture agreement.
For example, for Firm A, the protégé lived in Texas, where the joint venture entity was located.
The mentor, however, resided in Maryland, and established the joint venture bank account
at a local Maryland bank where the mentor already had a personal banking relationship.
Further, the mentor had more designated signatories on the joint venture bank account than
the protégé, which made determining ownership and control of the joint venture unclear.

The mentor managed and controlled the sophisticated financial software used for maintaining
the accounting records of the joint venture. All three protégés had access to the joint venture
financial information with at least one having limited access. For example, one protégé had
to rely on the mentor to query and provide financial reports for the joint venture firm.
We identified these non-compliant activities during our site visits with the protégés. Had the
Specialists monitored the joint venture after approval, they may have identified the potential for
program abuse.

Specialists’ Multiple Responsibilities Affected Quality of Oversight

The Specialists are the SBA’s primary resource for providing developmental assistance to the
firms and for overseeing program compliance. However, we found that the Specialists’ wide
range of assignments affected their level and quality of monitoring. A recurring concern we
found during our interviews of 18 Specialists and the 5 Lead (supervisory) Specialists was the
competing demands placed on the Specialists that diminished their time available for business
development activities and oversight. The GAO also reported similar findings in
                                           15
          November 2008 and March 2010.18 For example, some of the Specialists stated they had to
          work overtime to complete the mandated annual reviews intended to assess whether the 8(a)
          firms were eligible to continue participation in the 8(a) Program. To assist with their workload,
          and help them complete their annual reviews within the specified timeframes, one Lead
          Specialist stated he conducted orientation and outreach workshops, a task usually done by the
          Specialists. For additional details regarding Specialists responsibilities, see Appendix V.

          For the three district offices that we visited, Specialists were responsible for monitoring
          between 42 and 106 participants in the 8(a) Program. Those numbers could increase due to
          changes in staffing or an increase in participants. As shown in Table 1, the number of Specialists
          decreased, while the number of 8(a) firms and mentor-protégé participants increased from
          June 2011 to January 2012.

          As the number of Specialists fluctuated, the remaining Specialists assumed collateral duties and
          acquired additional 8(a) firms to monitor. This further reduced the available time to monitor
          their existing assigned 8(a) firms. According to SBA district office management, the ideal
          number of 8(a) firms per Specialist was between 30 and 40, which as of January 2012 was the
          norm on a nationwide basis as shown in Table 1. However, for the district offices that we
          visited, the average number of assigned 8(a) firms per Specialist were 72 for Baltimore, MD;
          43 for San Antonio, TX; and 88 for Washington, DC. The workload per Specialist in these three
          offices was not within the ideal range cited by SBA officials, possibly indicating an imbalance in
          workload across SBA’s 68 district offices.

          Table 1 SBA Specialists’ Workload Nationwide
                   As of date          Number of           Number of                 Number of         Average Number of 8(a)
                                                                       19
                                       Specialists       Mentor-Protégé              8(a) Firms          Firms Per Specialist

                   June 2011               344                    484                   6990                        20

                 January 2012              212                    630                   7751                        37

                     Percent
                                          -38%                   +30%                   +11%                       +85%
                     Change

               Source: SBA-OIG Analysis

          Some of the 18 Specialists we interviewed also served as the technical support contact person
          for their district office; performed administrative duties part-time; maintained a Microsoft Excel
          spreadsheet of approved joint ventures for the district office; or addressed needs of other SBA
          programs. Collateral duties, along with the limited number of Specialists, and increasing
          numbers of 8(a) firms impacted the Specialists’ ability to monitor 8(a) firms. Some Specialists
          had effective practices for servicing their assigned 8(a) participants. Refer to Appendix VI for the
          list of Effective Practices for Servicing 8(a) Participants.


18
   GAO. Agency Should Assess Resources Devoted to Contracting and Improve Several Processes in the 8(a) Program, GAO-09-16, (Washington,
D.C.: November 21, 2008); and GAO, Steps Have Been Taken to Improve Administration of the 8(a) Program, but Key Controls for Continued
Eligibility Need Strengthening, GAO-10-353, (Washington, D.C.: March 2010).
19
   We do not have the number of joint venture agreements resulting from Mentor-Protégé relationships because that information is not
captured by SBA processes.
                                                                   16
          In addition, the Specialists’ wide range of tasks and heavy workload further limited the level of
          monitoring dedicated to 8(a) firms that participate in the Mentor-Protégé program and awarded
          8(a) joint venture contracts. Specialists could easily miss indicators of program abuse when
          reviewing annual self-reported 8(a) documentation between the mentor and protégé, who
          performed on the contract. Specialists monitored their caseload as time permitted, in between
          their collateral duties. The lack of effective oversight increased the vulnerability for program
          abuse.

          Moreover, Specialists’ workload could potentially increase as the SBA develops three new
          Mentor-Protégé Programs based on the existing 8(a) Mentor-Protégé Program. The SBA’s
          management has not determined which SBA staff will assist and monitor mentor-protégé
          participants for the forthcoming women-owned, veteran-owned, and Historically Underutilized
          Business Zone Mentor-Protégé programs.

          SBA’s Multiple 8(a) Information Systems Did Not Collect Joint Venture Information

          The SBA used three information systems to capture information on 8(a) participants; however,
          none collected joint venture information. The Electronic 8(a) or E-8(a) system, the Business
          Development Management Information System (BDMIS), and the Activity Contract Report (ACR)
          were three stand-alone information systems Specialists used for monitoring 8(a) firms.
          The SBA’s inadequate systems used to monitor 8(a) participants have been an existing concern
          of the OIG and have been a recurring Management Challenge.20 Currently, a new system is in
          development to replace BDMIS, which the SBA expects will be operational in December 2012.

          For example, none of the three information systems contained data fields for Specialists to input
          joint venture information, such as the joint venture name or awarded contracts. Instead, the
          systems collected the 8(a) firms’ contact and annual review information. The Specialists input
          the annual review and firm information into the BDMIS and E-8(a) systems. Additionally, they
          entered information into the ACR system, which tracked day-to-day communication between
          the Specialists and their assigned 8(a) firms. Specialists told us the information captured was
          duplicative amongst each system and an inefficient use of their time.

          Prior to 2009, the SBA only collected basic 8(a) information, not joint venture information.
          In response to a 2009 OIG audit report, which recommended improved monitoring and internal
          controls over the joint venture agreements, the SBA implemented an Excel® spreadsheet to
          track approved joint venture contracts. However, the spreadsheet did not capture the name of
          the mentor or protégé. This made it difficult to match the name of the joint venture with the
          respective mentor and protégé. Consequently, the SBA did not know the universe of joint
          ventures under the Mentor-Protégé program.

                     Poor Data Quality and Availability Hampered Oversight

          The quality and availability of data collected and available also hampered the SBA’s oversight of
          Mentor-Protégé joint ventures. Senior SBA officials told us they did not know the exact number
          of joint venture agreements. Therefore, we attempted to calculate the number of joint venture

20
  SBA OIG. Fiscal Year 2012 Report on the Most Serious Management and Performance Challenges Facing the Small Business Administration,
Report Number 12-01.
                                                                   17
          agreements between mentors and protégés, but found data collection errors—such as duplicate
          information and incorrectly typed 8(a) case numbers—in the spreadsheet and other data
          provided to us by the SBA. For example, we found approved joint ventures listed multiple times.
          Because we questioned the reliability of the data, we contacted the individual district offices to
          obtain their joint venture information, and to confirm the mentor for the joint venture. We also
          contacted the 68 district offices to determine the number of joint venture agreements between
          a mentor and protégé since the Agency did not track this information.

          The majority of the 68 district offices responded to our request for joint venture information,
          but some had difficulty providing the requested information. Some offices obtained the
          information from the 8(a) firms, contract files, or the Federal Procurement Data System-Next
          Generation (FPDS-NG). When we requested fiscal years 2009 and 2010 closed contracts
          information, three offices took months before providing us the number of closed contracts; and
          two never responded, even after multiple follow-up requests. Eleven district offices did not
          have the closed 8(a) contracts readily available. Three of these 11 district offices had to request
          the information from the 8(a) firms because they did not have it in their files. One district office
          reported that they did not have any closed contracts during our scope; however, we found one
          closed contract for that district office through searching FPDS-NG.21

          To determine the universe of mentor-protégé relationships that resulted in joint venture
          agreements, we compared a list of approved mentor-protégé agreements to a list of all
          approved joint venture agreements. We matched whether the joint venture was between a
          mentor and protégé based on the 8(a) case number, which is a common numerical identifier
          used for all 8(a) firms. Based on our analysis, our best estimate was 122 approved joint venture
          agreements between a protégé and mentor. However, we were uncertain of the number of
          contracts awarded because the database— at the time of our review— did not contain this
          information.

          During our case file review of sample 8(a) firms, we identified discrepancies between the
          number of awarded joint venture contracts in the file and what was reported in the annual
          review documentation. Our analysis of the annual review documentation found the 8(a) firms’
          self-reported information submitted for joint venture agreements on Attachment B:
          Mentor-Protégé Worksheet of SBA’s Annual Review documentation did not include all of the
          federal contracts awarded to the joint ventures. The SBA did not know basic contract
          information, such as the number of contracts awarded or the associated procuring dollars.
          As a result, the SBA did not know whether joint venture participants complied with the three
          contracts awarded within the two-year period limitation requirement.22

          Conclusion

          The SBA was not positioned to proactively identify potential abuse in the Mentor-Protégé
          program. The SBA could not, for example, identify if a mentor was performing most of the work
          on a joint venture contract. The lack of verification procedures, the Specialists’ wide range of
          assignments, and the quality and availability of data affected their level and quality of oversight.


21
   The Federal Procurement Data System-Next Generation is a system used to capture contract information. Reports have found information
maintained in the system is not reliable.
22
   Title 13 CFR 121.103 (h), Affiliation Based on Joint Ventures
                                                                   18
Further, the lack of a central information system exacerbated the challenges confronting the
Specialists in monitoring the 8(a) firms and joint venture agreements. Once the SBA approved
the joint venture agreement, it performed minimal oversight to ensure that the protégé
complied with regulations and SBA policies making the program more vulnerable to abuse and
weakening its ability to succeed.

Recommendations

We recommend that the Associate Administrator for the Office of Government Contracting and
Business Development, in coordination with the Associate Administrator for the Office of Field
Operations:

       3. Develop and implement procedures for the Specialists to use to as part of the
          annual review, to verify information submitted by 8(a) firms, that considers a
          combination of:

           a. conducting site visits to verify information (i.e. who controls the joint venture);

           b. collecting quarterly or semiannually contract status updates;

           c. collecting performance of work reports (as mandated in March 2011 update of
              regulations); and

           d. conducting a joint venture closeout evaluation to verify that capacity was
              gained by the 8(a) firm.

While deploying the new information system, to better manage and monitor joint venture
arrangements in the Mentor-Protégé program, we recommend that the Associate Administrator
for the Office of Government Contracting and Business Development:

       4. Collect and maintain complete up-to-date and accurate data on 8(a) firms that have
          joint venture arrangements in the Mentor-Protégé program. At a minimum the
          system should:

           a. collect and maintain a universe of joint venture arrangements under the
              Mentor-Protégé program; and

           b. interface with other pertinent information systems, including Federal
              Procurement Data System-NG and the Dynamic Small Business Search.


We recommend that the Associate Administrator for the Office of Field Operations:

       5. Assess the workload of the Specialists to ensure they are able to carry out all of their
          responsibilities related to the 8(a) Program including better management and
          monitoring of joint venture arrangements. As part of this assessment, consider
          alternate approaches to service and monitor 8(a) firms with mentor protégé and
          joint venture agreements.
                                           19
       6. Implement controls ensuring that the Specialists document in the Summary Report
          their determination of the 8(a) firm’s lack of capacity to perform on a given
          contract, and how the Mentor will provide that missing capacity.


Agency Comments and Office of Inspector General Response

On August 29, 2012, we provided a draft of this report to the SBA’s Office of Government
Contracting and Business Development (GCBD) and Office of Field Operations for comment.
On October 1, 2012, SBA management submitted its formal written comments, which are
included in their entirety in Appendix VII.

Management Comments

Management generally agreed with all of the recommendations. While management generally
concurred with our recommendations, we determined that management did not provide
sufficient information to address recommendations number three, five, and six. A summary of
management comments to the report and recommendations— and our response— follows.

Management also offered four technical comments on the overall report. Specifically,
management stated that,

       The Report, as written, focuses on the Joint Venture arrangements that are permitted
       under the 8(a) Business Development Mentor Protégé Program. In doing so, there are
       several statements that will most likely be misconstrued by an uninformed reader and
       are misleading in respect to the purpose of the Mentor Protégé program.

We subsequently met with the GCBD management, and agreed to revise specific statements as
addressed in the following table.




                                         20
Table 2 Agency Technical Comments and OIG Response

 Comment
                       Draft Report                        Agency Comment                             OIG Response
 Number
               Executive Summary                Although SBA did not directly request a     Text changed in Executive
               Further, SBA officials view      change, SBA clarified that, while it is     Summary (final report) to read
               joint venture arrangements       correct that SBA officials view the         As a result, the SBA did not
               as an incentive for the          allowance of joint venture arrangements     establish performance measures
               Mentor to participate in the     as an incentive for the Mentor to           to monitor program performance
               program rather than as           participate in the program, it in no way    and mitigate risks inherent in the
               entities to be monitored. As     inhibits the Agency’s ability or its        8(a) Program
               a result, the SBA is unable to   perception of the need to monitor such
               monitor program                  arrangements for performance or
               performance and mitigate         compliance with program rules.
               risks inherent in the 8(a)
               Program.                         In addition, the SBA advised that current   We do not disagree that guidance
                                                program guidance set forth in 13 CFR §      is provided to the Business
                                                124.520(e) & (f), along with Chapter 9 of   Opportunity Specialists
      1                                         SOP 80 05, clearly articulate monitoring    (Specialists) to monitor and
                                                and oversight requirements related to       oversee the mentor protégé joint
                                                approved Mentor-Protégé Agreements.         venture agreements. However,
                                                Similarly, oversight and monitoring         the Standard Operating
                                                expectations for approved joint ventures    Procedures do not provide
                                                are set forth in 13 CFR § 124.513 and are   specific guidance to SBA
                                                further articulated in Chapter 8 of SOP     personnel on key oversight
                                                80 05. While they do not specifically       activities, as discussed in this
                                                indicate how these factors are              report. Further, where guidance
                                                measured, these guidelines stipulate the    was provided, we found that
                                                pertinent factors to be considered when     Specialists did not always fully
                                                evaluating proposed Agreements and          comply with requirements.
                                                associated benefits.                        Therefore, the SBA needs to
                                                                                            implement better controls to
                                                                                            ensure compliance.
               P. 6 Mentor-Protégé              The Agency wanted clarification that        Text changed in final report to
               Program                          8(a) participants are eligible to compete   read The 8(a) participants are
               The 8(a) participants are        for contracts set aside for only approved   eligible to receive 8(a) sole source
      2
               eligible to compete for 8(a)     8(a) participants.                          and 8(a) competitive contracts.
               contracts set aside for only
               small businesses.
               P. 7 Joint Venture               The Agency believed the statement was       Text changed in final report to
               Arrangements                     out of context but made no suggestion       read Importantly, as an incentive
               Importantly, as an incentive     as to revisions.                            for the mentor, the SBA’s…to
      3        for the mentor, the SBA’s…to                                                 jointly pursue 8(a) contracts
               jointly pursue 8(a) contracts                                                without the two...
               set aside for small
               businesses without the two…
               P. 7 Joint Venture               The Agency understood the message           Text changed in final report to
               Arrangements                     conveyed by the OIG, but said that the      read The exclusion enables the
               The exclusion enables large      statement should be revised to more         joint venture – between a large
               businesses or mentor             appropriately convey the relationship.      business and 8(a) participants –
               participants that would not                                                  that would not otherwise qualify
               otherwise qualify under the                                                  under the program, to receive
      4
               program, to receive federal                                                  federal contracts set aside for the
               contract set aside for 8(a)                                                  8(a) Program
               small business. In other
               words, it allows a large
               business to be considered a
               small business.”

                                                             21
Recommendation 1 - Develop specific, measurements (outputs and outcomes) to evaluate
benefits of the joint venture agreements to protégé.

       Management Comments

       Management stated that the Agency is currently working to develop metrics to enable
       Business Opportunity Specialists to better measure the benefits of both the Mentor-
       Protégé relationships, as well as joint ventures. Further, the Agency’s One-Track CMS,
       which is still being developed, will have monitoring and oversight features for both
       Mentor-Protégé Agreements and Joint Venture Agreements.

       OIG Response

       We consider management comments to be responsive to our recommendation.

Recommendation 2 - Use the information identified in Recommendation 1 to develop
procedures to assess risk and better support decisions concerning the direction and,
administration of the Mentor-Protégé program so as to minimize risk.

       Management Comments

       Management stated that the SBA’s Office of Program Review, a sub-office within the
       Office of Business Development, will evaluate proposed and existing program policies to
       mitigate program abuse.

       OIG Response

       We consider management comments to be responsive to our recommendation and
       expect that their evaluation of proposed and existing program policies will identify
       actions for mitigating program abuse.

Recommendation 3 - Develop and implement procedures for the Specialists to use to as part
of the annual review , to verify information submitted by 8(a) firms, that considers a
combination of:

a.     conducting site visits to verify information (i.e. who controls the joint venture);

b.     collecting quarterly or semiannually contract status updates;

c.     collecting performance of work reports (as mandated in March 2011 update of
       regulations); and

d.     conducting a joint venture closeout evaluation to verify that capacity was gained by
       the 8(a) firm.




                                          22
       Management Comments

       Management stated that the One-Track CMS will have capabilities for periodic reporting
       and that the revised SOP 80 05 3 will stipulate requirements for the site visits and
       closeout activities.

       OIG Response

       We believe management partially responded to this recommendation because they
       discussed the tools used to monitor the reporting. However, management did not
       respond to whether the Specialists will verify the information submitted into the One-
       Track CMS. Specifically, management did not state whether Specialists will conduct site
       visits and verify that capacity was gained by the 8(a) firm. Without verifying this
       information, the SBA will not know if the 8(a) participant is benefiting from the
       arrangement and continuing with its business development.

Recommendation 4 - Collect and maintain complete up-to-date and accurate data on 8(a)
firms that have joint venture arrangements in the Mentor-Protégé program. At a minimum
the system should:

a.     collect and maintain a universe of joint venture arrangements under the Mentor-
       Protégé program; and

b.     interface with other pertinent information systems, including Federal Procurement
       Data System-NG and the Dynamic Small Business Search.

       Management Comments

       Management has already begun to address this recommendation by developing the
       One-Track CMS and assuming no technological or environmental obstructions,
       management anticipates that the system will interface with other available sources of
       relevant data, including FPDS-NG and DSBS.

       OIG Response

       We believe management’s comments are responsive to the recommendation.
       However, we note the One-Track CMS will not be able to address all of the
       recommendations. For example, the BOS still must perform analysis of the data that
       resides in the system and information they observe during site visits.


Recommendation 5 - Assess the workload of the Specialists to ensure they are able to carry
out all of their responsibilities related to the 8(a) Program including better management and
monitoring of joint venture arrangements. As part of this assessment, consider alternate
approaches to service and monitor 8(a) firms with mentor protégé and joint venture
agreements.



                                          23
       Management Comments

       Management stated that it completed a study to assess the critical job duties and
       performance standards of the BOS. Based on the results, new critical elements and
       performance standards were put in place to better monitor and manage the work load
       consistently across districts.

       OIG Response

       We believe management was partially responsive to this recommendation.
       Management did not state whether or not the study included monitoring joint venture
       agreements associated with the Mentor Protégé program or how new critical elements
       and performance standards impact the BOS workload.


Recommendation 6 - Implement controls ensuring that the Specialists document in the
Summary Report their determination of the 8(a) firm’s lack of capacity to perform on a given
contract, and how the Mentor will provide that missing capacity.

       Management Comments

       Management stated that Chapters 8 and 9 of SOP 80 05 established procedures for
       district office staff to use for determining 8(a) firm’s lack of capacity to perform
       regarding the approval process for joint ventures. Management stated that it will
       ensure that these procedures are being followed by district office staff and will include
       them as a component to Quality Service Reviews.

       OIG Response

       We consider management comments partially responsive to our recommendation.
       While management stated that it would ensure that district staff properly documented
       the lack of capacity, it did not provide sufficient explanation of how the control would
       be implemented. In addition, management did not explain the relevance or frequency
       of the quality service reviews, nor specify who performs the reviews.

Actions Required

Please provide your management decision for each recommendation on the attached SBA
Forms 1824, Recommendation Action Sheet, within 30 days from the date of this report.
Your decision should identify the specific action(s) taken or planned for each recommendation
and the target dates(s) for completion.

We appreciate the courtesies and cooperation of the Small Business Administration during this
audit. If you have any questions concerning this report, please call me at (202) 205-7390 or
Riccardo R. Buglisi, Director, Business Development Programs Group at (202) 205-7489.




                                          24
Appendix I: Scope and Methodology
          Our objectives were to (1) determine the extent to which the joint venture agreement between
          a mentor and protégé resulted in substantial benefit to the 8(a) participant, and (2) assess SBA’s
          oversight of the Mentor-Protégé Program’s Joint Venture Arrangements. To address these
          objectives, we reviewed program regulations, guidance, and related reports. We examined case
          files at the SBA district offices and contractual files at the 8(a) participant’s office.

          We interviewed Small Business Administration’s (SBA) staff to discuss their process for
          monitoring 8(a) participants awarded an 8(a) joint venture contract. Specifically, we met with
          SBA management in the Offices of Business Development and Field Operations. In the three
          district offices, we interviewed the district directors, assistant district directors, attorneys,
          and 23 Business Opportunity Specialists, including the Lead Business Opportunity Specialists.
          Additionally, we interviewed the 8(a) participants selected in our sample to determine their
          interaction with the SBA staff and program compliance.

          To evaluate program guidance, policies, and procedures (including regulatory guidance
          changes), we reviewed the Code of Federal Regulations, parts 121 and 124, before and after the
          March 2011 regulatory revisions effective date. We analyzed the SBA’s Standard Operating
          Procedure 80 05 3 chapters on the Mentor-Protégé Program, Joint Venture and Teaming
          Arrangements, and Participant Review Process to understand the existing guidance provided to
          SBA staff involved with screening, approving, and monitoring 8(a) applicants and participants.
          To identify existing concerns and recommendations with the mentor-protégé and joint venture
          programs, we examined multiple reports on SBA’s mentor protégé and joint venture programs.
          Specifically we used reports including our Reports on the Most Serious Management Challenges
          Facing the Small Business Administration, and reports from the Government Accountability
          Office and Congressional Research Service that pertain directly to X. A detailed list of all of the
          reports reviewed is included in this Appendix, under Prior Coverage.

          To determine the population of 8(a) participants with a mentor-protégé and joint venture
          arrangements, we had to estimate the universe. We compiled an estimated list by matching a
          common identified number, such as the 8(a) case number, for an approved mentor protégé list
          as of November 2010, with a list of approved joint ventures. We concluded 122 mentor-protégé
          relationships created joint venture entities.1 For the 122, we searched USASpending.gov to
          calculate the total awarded contract dollars. We determined that the 122 mentor-protégé
          relationships had total contracts totaling approximately $1.7 billion. Of the $1.7 billion, we
          grouped the joint venture entities within their respective district offices to identify the top
          district offices with the highest total procurement dollar. We identified nine district offices with
          the Mentor Protégé activity and the highest procurement dollars totaling over $1 billion.

          From the top nine district offices, we judgmentally selected our sample of three SBA district
          offices with Mentor Protégé activity and joint venture contracts. Washington, DC; Baltimore,
          MD; and San Antonio, TX were the chosen district offices.



1
 Joint Venture entities were the businesses created between an 8(a) participant and mentor seeking approval for an 8(a) joint venture
agreement.
                                                                     25
Appendix I: Scope and Methodology
       From those district offices, we judgmentally selected three 8(a) participants with mentor-
       protégé and joint venture agreements with closed 8(a) contracts or task orders in fiscal years
       2009 and 2010. Additional selection factors considered include the type of 8(a) contract
       awarded, the total 8(a) contract dollar amount, and the number of joint venture agreements for
       the mentor and protégé. The three 8(a) firms’ joint venture agreements had associated
       contracts valued at approximately $350 million. We interviewed staff at the three district
       offices and senior management of the three 8(a) firms awarded a joint venture 8(a) contract
       with a mentor.

       We conducted this audit from September 2010 through July 2012 in accordance with generally
       accepted government auditing standards. Those standards require that we plan and perform
       the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
       findings and conclusions based on our audit objectives. We believe that the evidence obtained
       provides a reasonable basis for our findings and conclusions based on our audit objectives.


Use of Computer-Processed Data

       We performed appropriate data reliability procedures for our sample testing. We questioned
       the completeness of SBA’s approved joint venture information because we later found an
       additional mentor protégé relationship with a joint venture agreement that was not included on
       SBA’s list. For assurance of the data used in our sample, we corroborated information with
       Agency documents, and acknowledged our existing concerns with the SBA’s identified systems
       that maintain 8(a) participant information.

Prior Coverage

U.S. Small Business Administration, Office of Inspector General Reports:

      Audit Report Number 07-19, Audit of Two 8(a) Sole-Source Contracts Awarded to Contractors in
       SBA's Mentor-Protégé Program, March 30, 2007.

      Report Number 8-01, Fiscal Year 2008: Report on the Most Serious Management and
       Performance Challenges Facing the Small Business Administration, October 16, 2007.

      Report Number 9-02, Fiscal Year 2009: Report on the Most Serious Management Challenges
       Facing the Small Business Administration, October 20, 2008.

U.S. Government Accountability Office Audit Reports:

      Report Number GAO-09-16, Agency Should Assess Resources Devoted to Contracting and
       Improve Several Processes in the 8(a) Program, November 2008.
      Report Number GAO-10-353, Steps Have Been Taken to Improve Administration of the 8(a)
       Program, but Key Controls for Continued Eligibility Need Strengthening, March 2010.



                                                  26
Appendix I: Scope and Methodology
      Report Number GAO-11-548R, Mentor–Protégé Programs Have Policies That Aim to Benefit
       Participants but Do Not Require Post-agreement Tracking, June 2011.

      Report Number GAO-12-84, Federal Contracting: Monitoring of Tribal 8(a) Firms Need Attention,
       January 2012.

Congressional Research Service Reports

      Report Number 7-5700, R41722, Small Business Mentor-Protégé Programs, January 6, 2012

      Report Number 7-5700, R41722, Small Business Mentor-Protégé Programs, March 19, 2012.

      Report Number 7-5700, R41722, Small Business Mentor-Protégé Programs, May 14, 2012.




                                                27
Appendix II: Mentor-Protégé Program
           The SBA regulations1 govern various aspects of administering and monitoring the Mentor-
           Protégé program. These regulations provide a general overview, eligibility requirements,
           benefits, guidance for written agreements, and factors for the evaluation of the program.
           In addition to the Code of Federal Regulations, staff from the SBA are required to follow the
           8(a) Program’s Standard Operating Procedures 80 05 3 for detailed information and guidance.

           The purpose of SBA’s Mentor-Protégé program is to enhance the capability of 8(a) participants
           to compete more successfully for federal government contracts. A mentor may be either a large
           or a small business, must be eligible for award of a government contract, and must be able to
           provide developmental assistance to enhance the capabilities of the protégés. An incentive for
           non-8(a) firms to participate as mentors is the exception to the affiliation rule.2 The SBA’s
           mentor-protégé program permits a waiver of the affiliation rule3 for joint ventures between
           mentors and 8(a) protégés, allowing them to jointly pursue 8(a) contracts set aside for small
           businesses without the two firms being considered “affiliated” for purposes of SBA’s small
           business size standards. In other words, it allows a large business arrangement to be considered
           a small business.

           The SBA requires that mentors and protégés enter into a written mentor protégé agreement,
           approved by the SBA’s Associate Administrator for Business Development, which assesses the
           protégé’s needs and describes the assistance the mentors will provide. This agreement
           generally obligates the mentor to furnish assistance to the protégé for at least one year.
           To help ensure that protégés benefit from participation in the mentor-protégé program,
           regulations require the SBA to review mentor-protégé relationships on an annual basis in
           determining whether to approve its continuation for another year. In addition, SBA staff must
           approve all changes to a mentor-protégé agreement, in advance. The SBA annually requires the
           8(a) Program participant to submit a business plan and an “Annual Update” with the participant
           status information.

           The Specialists review the submitted documentation for completeness, while having collateral
           duties for other SBA programs. As of January 2012, there were 630 active mentor-protégé
           agreements, a 30 percent increase since November 2010.




1
  Title 13 CFR 124.520, What are the rules governing SBA’s Mentor-Protégé program?
2
  Title 13 CFR 121.103(b)(6), Exceptions to Affiliation Coverage.
3
  Title 13 CFR 121.103(a)(1-2), General Principals of Affiliation defines affiliation as occurring when an individual controls or has the power to
control the other individual, or a third party or parties controls or has the power to control both. It does not matter whether control is
exercised, so long as the power to control exists. The firms’ numbers of employees or revenue are factors used to evaluate the size of a firm.
Additional control factors include ownership, management, previous relationships and contractual relationships.
                                                                        28
Appendix III: Regulatory Changes to the Mentor-Protégé Program1 and Joint
Venture Requirements2
                                                       Mentor-Protégé Program
                       Pre-March 2011                                                              Post-March 2011
This is new language added to the rule; the former regulations              Language added that mentor protégé agreements must include
(pre-March 2011) did not address these issues.                              a timeline on when the mentor will provide assistance to the
                                                                            protégé and address how the assistance to be provided will help
                                                                            the protégé firm meet the goals established in its SBA approved
                                                                            business plan.
Generally, mentors will have no more than one protégé at a                  Keeps the same language, but adds text that limits the number
time. However, SBA may authorize additional protégés as long                of protégés any mentor could have to three.
as the relationships are not adversely affecting the
development of either protégé.
In order to demonstrate its favorable financial health, a firm              A firm seeking to be a mentor must submit Federal income tax
seeking to be a mentor must submit its federal tax returns for              returns, audited financial statements, including any notes, or, in
the last two years to SBA for review.                                       the case of a publicly traded entity, its filings with the Securities
                                                                            and Exchange Commission, for the previous three years to
                                                                            demonstrate financial health.
Prior to the March 2011 revised regulations, the Code of                    SBA allows non-profit entities to be mentors.
Federal Regulations did not specify that nonprofit entities could
be mentors.
Regulation stated that only 8(a) participants in good standing              The exclusion from affiliation enjoyed by joint ventures between
could be protégés, but did not specify whether the exemption                protégés and their mentors ends when the protégé leaves the
from affiliation could continue after the protégé exits the                 8(a) BD program except as to contracts awarded to the joint
program.                                                                    venture prior to the protégé’s program exit.
This is a new paragraph added to the rule; the former                       Precludes 8(a) firms from being mentors and protégés at the
regulations (pre-March 2011) did not address this issue.                    same time.
This is a new paragraph added to the rule; the former                       To receive the exclusion from affiliation for both 8(a) and non
regulations (pre-March 2011) did not address this issue.                    8(a) procurements, the joint venture must comply with the
                                                                            requirements set forth in 124.513 (c).
Provides that the SBA can disapprove continuation of a                      Establishes procedures requiring mentors to respond to SBA
mentor-protégé agreement if the mentor has not provided                     findings that assistance promised in a mentor protégé
promised assistance or if assistance has not resulted in any                agreement has not been provided. Mentors must respond
material benefits or developmental gains to the protégé.                    within 30 days explaining why the assistance was not provided
                                                                            and setting forth a definitive plan as to when it will provides
                                                                            such assistance. If a mentor 1) fails to respond, 2) does not
                                                                            supply adequate reasons for a failure to provide the agreed
                                                                            upon assistance, or 3) does not set forth a definite plan to
                                                                            provide the assistance, SBA will terminate the mentor-protégé
                                                                            agreement and the firm will be ineligible to again act as a
                                                                            mentor for two years. SBA may also recommend to the relevant
                                                                            procuring agency to issue a stop work order for each Federal
                                                                            contract for which the mentor and protégé are performing as a
                                                                            small business joint venture and consider the mentor’s failure to
                                                                            comply with the terms of the mentor-protégé agreement as a
                                                                            basis for debarment.




1
    Title13 CFR 124.520, What are the rules governing SBA’s Mentor-Protégé program?
2
    Title 13 CFR 124.513, Under what circumstances can a joint venture be awarded an 8(a) contract?
                                                                       29
Appendix III: Revised 8(a) Regulatory Changes to the Mentor-Protégé Program
and Joint Venture Requirements
                                               Joint Venture Arrangements

                      Pre-March 2011                                                     Post-March 2011
13 CFR Section 121.103(h), a joint venture is an entity with   A specific joint venture can be awarded three contracts over a
limited duration. Specifically, joint ventures can submit no   two-year period, starting with the date of the award of the first
more than three offers over a two-year period, starting        contract. However, the same entities that form one joint
from the date of the submission of the first offer.            venture can form other joint ventures amongst themselves or
                                                               with other entities and be awarded three additional contracts.
This is a new paragraph added to the rule; the former          If the joint venture is a separate legal entity, the 8(a)
regulations (pre-March 2011) did not address this issue.       participant(s) must own at least 51% of the joint venture
                                                               entity.
Not less than 51% of the net profits earned by the joint       The 8(a) participant(s) must receive profits from the joint
venture must be distributed to the 8(a) participant(s).        venture commensurate with the work performed by the
                                                               protégé or if the joint venture is a separate legal entity,
                                                               commensurate with the ownership interest of the 8(a)
                                                               participant(s).
For an 8(a) contract, the protégé must perform a significant   Generally, for an 8(a) contract, the 8(a) participant(s) must
amount of the work done by the joint venture.                  perform at least 40% of the work done by the joint venture.
SBA must approve a joint venture agreement prior to the        When a joint venture has been established and approved for
award of an 8(a) contract on behalf of the joint venture.      one 8(a) contract, a second or third 8(a) contract may be
                                                               awarded to the joint venture provided that the SBA’s prior
                                                               approval is obtained of an addendum to the joint venture
                                                               agreement setting forth the performance requirements for the
                                                               contract(s).
This is a new paragraph added to the rule; the former          8(a) participants must report to SBA annually and at the
regulations (pre-March 2011) did not address this issue.       completion of a contract how the performance of work
                                                               requirements were met for contracts performed as a joint
                                                               venture.




                                                               30
Appendix IV: Joint Venture Arrangements
          There are three different types of joint venture agreements. Table 1 provides a brief description
          of the joint venture type and contract eligibility for both the 8(a) and non-8(a) small business
          programs.

          Table 1 Joint Venture Type and Eligibility

            Type of Joint Venture                     Contract Offers Eligibility Description

            Two or more small non-8(a)                Can submit contract offers as a small business without regard to
            businesses                                affiliation, as long as each firm is small under the size standard
                                                      corresponding to the North American Industry Classification
                                                      System (NAICS) code assigned to the contract.
            Two or more small businesses              Can submit contract offers for competitive 8(a) procurements
            with at least one business as an          without regard to affiliation as long as each firm is small under the
            8(a) Participant                          size standard corresponding to the NAICS code assigned to the
                                                      contract and other regulatory criteria in 13 CFR 124.513(b) are
                                                      met.
            One large business and one                Can submit contract offers on any Federal government
            small business approved by                procurement, as long as the protégé qualifies as small and for
            SBA to participate in SBA’s               purposes of 8(a) sole source requirements has not reached 8(a)
            mentor-protégé program                    sole source requirements dollar limits. If the procurement is to be
                                                      awarded through the 8(a) BD program, SBA must approve the joint
                                                      venture pursuant to 13 CFR 124.513.
          Source: Title 13 CFR 121.103(h), How Does SBA Determine Affiliation? And Title 13 CFR 124.513 Under what
          circumstances can a joint venture be awarded an 8(a) contract?

          Protégés can have multiple joint venture agreements with a mentor. The Specialists are
          required to review the joint venture agreements and supporting documentation for
          completeness before granting approval. If the district office management approves the joint
          venture agreement, the Specialist monitors the 8(a) firms’ approved joint venture agreements
          until the contracts are completed or the 8(a) participant leaves the 8(a) Program.

          The 8(a) regulations further allow mentor protégé joint ventures to bid on an infinite number of
          non-8(a) contracts and the SBA is not required to approve or monitor non-8(a) joint venture
          contracts between a mentor and a protégé. Guidance for joint venture is included in the CFR
          and the SOP for the 8(a) Program.1 The regulations address size concerns for an 8(a) joint
          venture, contents of a joint venture agreement and any amendments, performance of work,
          contract execution, and inspection of records. In addition to the CFR, the 8(a) SOP provides staff
          more detail on what factors to consider when reviewing joint ventures for the 8(a) Program,
          among other things.

          The regulations that became effective in March of 2011 require each 8(a) participant that
          performs an 8(a) contract through a joint venture to report to the SBA how the performance of
          work requirements were met on the contract.



1
 The joint venture regulations are throughout 13 CFR, however 13 CFR 124.513 provides guidance on circumstances that a joint venture is
awarded an 8(a) contract.
                                                                    31
Appendix V: Responsibilities of the Specialists Overseeing the 8(a) Program
      Listed below is a brief summary of responsibilities Specialists must perform to manage the 8(a)
      Program:

              (1) analyzing change of ownership or business structure reports;

              (2) conducting orientation with potential and current 8(a) firms;

              (3) evaluating individual and business eligibility for the 8(a) Program;

              (4) inputting and updating data into SBA’s systems used to monitor 8(a) participants;

              (5) performing statutory annual reviews of 8(a) firms for continued program eligibility;

              (6) providing:

                      a. maximum opportunities for the 8(a) firms by striving to increase the 8(a)
                         share of prime contracts and 8(a) participation in subcontract opportunities;
                         and

                      b. a proposal and supporting documentation for 8(a) firms leaving the 8(a)
                         Program;

              (7) reviewing:

                      a. documentation during the 8(a) application screening process; and

                      b. mentor-protégé agreements for completeness ;

              (8) reviewing and approving joint venture agreements.




                                                  32
Appendix VI: Effective Practices for Servicing 8(a) Participants

      Based on OIG Observations, these are the suggested best practices for SBA’s servicing of 8(a)
      participants who enter into 8(a) Joint Venture Contracts:

          ◦   A Mentor-Protégé Review Board that consists of the Lead Business Opportunity
              Specialist (Specialist), Assistant District Director, District Office Attorney, and District
              Director review all mentor-protégé and joint venture agreements. (We observed this in
              the Washington, DC Metropolitan Area District Office.)
          ◦   Preliminary in-person (face-to-face) meetings with the Specialist, 8(a) participant, and
              mentor to explain the Mentor-Protégé Program and Joint Venture Agreements.
              (We observed this in the Baltimore, MD, and Washington, DC Metropolitan Area District
              Offices.)
          ◦   Quarterly status reports from the 8(a) participant on the mentor-protégé and joint
              venture progress. (We observed this in the Baltimore, MD District Office.)
          ◦   Proposed and Actual action plans from the 8(a) participant submitted to the Specialist.
              (We observed this in the Washington, DC Metropolitan Area District Office.)
          ◦   District offices maintain a log of issues related to mentor protégé and joint venture
              participants. (We observed this in the Washington, DC Metropolitan Area District
              Office.)
          ◦   Training sessions specifically focused on mentor-protégé and joint venture district office
              issues for District Office staff. (We observed this in the Washington, DC Metropolitan
              Area District Office.)
          ◦   Enforce remedial measures and termination as an enforcement method. (We observed
              this in the Washington, DC Metropolitan Area District Office.)




                                                  33
Appendix VII: Agency Comments



                          U.S. SMALL BUSINESS ADMINISTRATION
                                   WASHINGTON, D.C. 20416




MEMORANDUM

Date:          September 28, 2012

To:            John K. Needham
               Assistant Inspector General for Auditing

From:          John Shoraka
               Associate Administrator for Government Contracting
                and Business Development

               Robert Hill
               Associate Administrator for Field Operations

Subject:       Draft Report Entitled “Benefits of Mentor Protégé Joint Ventures are Unknown:
               Robust Oversight is Needed to Avoid Abuse and Assure Success

Thank you for the opportunity to respond to your Draft Report of August 29, 2012 regarding the
subject noted above. Based on our review, the Offices of Government Contracting and Business
Development and Field Operations generally concur with your recommendations and offer the
following comments.

The Report, as written, focuses on the Joint Venture arrangements that are permitted under the
8(a) Business Development Mentor Protégé Program. In doing so, there are several statements
that will most likely be misconstrued by an uninformed reader and are misleading in respect to
the purpose of the Mentor Protégé program. In this regard, in its Executive Summary, the Report
states, “Further, SBA officials view joint venture arrangements as an incentive for the Mentor to
participate in the program rather than as entities to be monitored. As a result, the SBA is unable
to monitor program performance and mitigate risks inherent in the 8(a) program.” While it is
correct that SBA officials view the allowance of joint venture arrangements as an incentive for
the Mentor to participate in the program, it in no way inhibits the Agency’s ability or its
perception of the need to monitor such arrangements for performance or compliance with
program rules.

First, it is important to note that the Mentor-Protégé Program is a tool designed to encourage
successful entities, for-profit or non-profit, that demonstrate the ability and commitment to assist
in the development of 8(a) BD program participants to provide various forms of business
                                                 34
development assistance to protégé firms, including assistance in performing prime contracts with
the Government through joint venture arrangements.

In this regard, current program guidance set forth in 13 CFR § 124.520(e) & (f), along with
Chapter 9 of SOP 80 05, clearly articulate monitoring and oversight requirements related to
approved Mentor-Protégé Agreements. Similarly, oversight and monitoring expectations for
approved joint ventures are set forth in 13 CFR § 124.513 and are further articulated in Chapter 8
of SOP 80 05. While they do not specifically indicate how these factors are measured, these
guidelines stipulate the pertinent factors to be considered when evaluating proposed Agreements
and associated benefits.

We would also like to point to several statements in your report that we recommend you consider
revising. On page 6 under the Section entitled “Mentor-Protégé program”, you state, “The 8(a)
participants are eligible to compete for 8(a) contracts set aside for only small businesses.” This
statement is technically incorrect. In the context presented, it would be correct to say 8(a)
participants are eligible to compete for contracts set aside for only approved 8(a) participants.

The same applies to your statement at the top of page 7 that reads, “Importantly, as an incentive
for the mentor, the SBA’s…to jointly pursue 8(a) contracts set aside for small businesses. “
Again, in this context, the contracts to which you refer are those set aside for only approved 8(a)
participants. Also, on page 7 in the second bullet under the Section entitled, “Joint Venture
Arrangements”, states, “The exclusion enables large businesses or mentor participants that
would not otherwise qualify under the program, to receive federal contract set aside for 8(a)
small business. In other words, it allows a large business to be considered a small business.”
These are factually inaccurate statements. First, there are no provisions in the Mentor-Protégé
program that would allow a mentor or large business to receive a contract set aside for an 8(a)
participant, as is implied by that statement. Further, while an approved joint venture under the
Mentor Protégé Program is considered small for the purpose of performing the 8(a) contract, at
no time is the Mentor, if it is in fact a large business, considered to be small. While we fully
understand the message you are attempting to convey, as presented, the statements are
misleading and should be revised to more appropriately convey the relationship.

Recommendation 1: Develop specific measurements (outputs and outcomes) to evaluate
benefits of the joint venture agreements to protégé.

SBA is currently working to develop metrics to enable BOSs to better measure the benefits of
both the Mentor-Protégé relationships, as well as joint ventures. Additionally, the new
automated program management information system that is currently under development, One-
Track CMS, will incorporate monitoring and oversight features for both Mentor-Protégé
Agreements and Joint Venture Agreements. Through these tools, BOSs will have access to more
current and reliable performance data related to each.

Recommendation 2: Use this information identified in Recommendation 1 to develop
procedures to assess risk and better support decisions concerning the direction and
administration of the Mentor-Protégé program so as to minimize risk.


                                                35
The Office of Business development recently added a risk mitigation component to its Office of
Program Review. Through that office, all program policy, existing and proposed, will be
evaluated with the intent of mitigating program abuse. These evaluations will be based on all
relevant data that is available.

Recommendation 3: Develop and implement procedures for the Specialists to use as part
of the annual review, to verify information submitted by 8(a) firms that considers a
combination of:

   a. Conducting site visits to verify information (i.e. who controls the joint venture);
   b. Collecting quarterly or semiannually contract status updates;
   c. Collecting performance of work reports (as mandated in March 2011 update of
      regulations); and,
   d. Conducting a joint venture closeout evaluation to verify that capacity was gained by
      the 8(a) firm.

As noted above, One-Track CMS, as designed, will facilitate the requirement for and the
provision of the noted periodic reporting. Additionally, these requirements, including the site
visits and closeout activities, will be stipulated in the revised SOP manual which is currently
under development.

Recommendation 4: Collect and maintain complete up-to-date and accurate data on 8(a)
firms that have joint venture arrangements in the Mentor-Protégé program. At a
minimum the system should:

   a. Collect and maintain a universe of joint venture arrangements under the Mentor-
      Protégé program; and
   b. Interface with other pertinent information systems, including Federal Procurement
      Data System-NG and the Dynamic Small Business Search.

As you are aware, One-Track CMS is designed to collect all pertinent data related to an approved
firm’s participation in the 8(a) BD program. Such data will include activities related to any
aspects of the program through which the firm receives a benefit, to include expected outputs and
outcomes. As planned and designed, assuming no technological or environmental obstructions,
we fully anticipate that the system will interface with other available sources of relevant data,
including FPDS-NG and DSBS.

Recommendation 5: Assess the workload of the Specialists to ensure they are able to carry
out all of their responsibilities related to the 8(a) program including better management
and monitoring of joint venture agreements. As part of this assessment, consider alternate
approaches to service and monitor 8(a) firms with mentor protégé and joint venture
agreements.

The Office of Field Operations convened a peer team of District Director across the nation to
assess the Critical job duties and performance standards for the BOS and all three levels. After
the assessment new Critical element and Performance standards were put in place documented

                                                36
by new position descriptions and evaluation measures to better monitor and management the
work load consistently across districts.

Recommendation 6: Implement controls ensuring that the Specialists document in the
Summary Report their determination of the 8(a) firm’s lack of capacity to perform on a
given contract, and how the Mentor will provide that missing capacity.

Chapter 8 and 9 of SOP 80 05 establish procedures for district office staff to use for determining
8(a) firm’s lack of capacity to perform regarding the approval process for joint ventures. We will
ensure that these procedures are being followed by district office staff and will include them as a
component to Quality Service Reviews (QSR).

As we have briefly noted, many of the recommendations provided in this report are currently
being addressed by ongoing initiatives in the Office of Business Development. Upon full
implementation of those initiatives SBA will be in a position to proactively identify potential
abuse in its 8(a) BD program, to include the Mentor-Protégé program. The implementation of
the recent regulatory changes; the enhanced procedures that will be implemented through the
revised SOP manual; and, the roll-out of One-Track CMS will substantially improve SBA’s
ability to effectively conduct ongoing oversight and monitoring of the activities of 8(a) BD
program participants.

Again, we appreciate the opportunity to provide comments related to this draft report.




                                                37
